               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03650-53




    Combined Assessment Program 

           Review of the 

          Harry S. Truman 

     Memorial Veterans’ Hospital 

         Columbia, Missouri 





January 29, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                                                  Glossary
                 CAP                Combined Assessment Program
                 CLC                community living center
                 CPR                cardiopulmonary resuscitation
                 EHR                electronic health record
                 EOC                environment of care
                 facility           Harry S. Truman Memorial Veterans’ Hospital
                 FY                 fiscal year
                 MEC                Medical Executive Committee
                 MH                 mental health
                 NA                 not applicable
                 NM                 not met
                 OIG                Office of Inspector General
                 OR                 operating room
                 PRC                Peer Review Committee
                 QM                 quality management
                 VHA                Veterans Health Administration
                 VISN               Veterans Integrated Service Network
                 VJO                Veterans Justice Outreach




VA OIG Office of Healthcare Inspections
                               CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Acting Facility Director Comments ....................................................................                       21

  E. OIG Contact and Staff Acknowledgments .........................................................                              29

  F. Report Distribution .............................................................................................            30

  G. Endnotes ...........................................................................................................         31





VA OIG Office of Healthcare Inspections
                       CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
November 11, 2013.

Review Results: The review covered seven activities.                            We    made     no
recommendations in the following three activities:

 Coordination of Care

 Medication Management

 Nurse Staffing

The facility’s reported accomplishments were the Veterans Justice Outreach Program
and the expansion of gastroenterology services.

Recommendations: We made recommendations in the following four activities:
Quality Management: Reconsider Peer Review Committee membership to ensure
sufficient experienced senior physicians are regular members. Ensure that when
conversions from observation bed status to acute admissions are over 30 percent,
observation criteria and utilization are reassessed timely.                 Require that
Cardiopulmonary Resuscitation Committee code reviews include screening for clinical
issues prior to the code that may have contributed to the occurrence of the code.
Ensure the Surgical Work Group meets monthly and includes the Chief of Staff as a
member. Keep the recipient list for the automated e-mail notification for the critical
incidents reporting process current. Review the quality of entries in the electronic health
record at least quarterly, and include most services in the review of electronic health
record quality. Ensure that the Blood Usage Review Committee member from
Anesthesia Service consistently attends meetings and that the blood/transfusions usage
review process includes the results by government or private (peer) entities and the
results of peer reviews when transfusions did not meet criteria.

Environment of Care: Ensure the locked mental health unit nursing station has a panic
alarm system.

Pressure Ulcer Prevention and Management: Accurately document risk scale scores for
all patients with pressure ulcers. Perform and document daily risk scales, and revise
prevention plans when risk levels change for patients at risk for or with pressure ulcers.
Develop interprofessional treatment plans for all hospitalized patients identified as being
at risk for pressure ulcers and patients with pressure ulcers, and provide and document
recommended interventions. Provide and document pressure ulcer education for




VA OIG Office of Healthcare Inspections                                                         i
                       CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


patients at risk for and with pressure ulcers and/or their caregivers.                 Complete
applicable consults for patients at risk for and with pressure ulcers.

Community Living Center Resident Independence and Dignity: Complete and document
restorative nursing services according to clinician orders and/or residents’ care plans.
Document resident progress towards restorative nursing goals. Document the reasons
for discontinuing or not providing restorative nursing services when these services are
care planned. Provide all care planned/ordered assistive eating devices to residents for
use during meals. Document resident progress using the required Restorative Weekly
Note.

Comments
The Veterans Integrated Service Network Director and Acting Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–28, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                       CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
November 15, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                         1
                               CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia,
Missouri, Report No. 10-00879-126, April 8, 2010).

During this review, we presented crime awareness briefings for 159 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
142 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                                Reported Accomplishments

VJO Program
The purpose of the VJO program is to avoid the unnecessary criminalization of mental
illness and extended incarceration among veterans by ensuring that eligible
justice-involved veterans have timely access to VHA services as clinically indicated. In
2013, the facility VJO program established Veteran Treatment Courts in local counties
and formed a Veteran Legal Clinic, which is held weekly at the facility. Facility VJO staff
are on the Special Veteran Committee with the Missouri Bar Association and are
working to establish Veteran Legal Clinics across Missouri. Facility VJO program staff
also provided veteran program education to local law enforcement officers and
implemented a telemedicine anger management group, which is offered to veterans at
the facility and its community based outpatient clinics.

Gastroenterology Service Expansion
In 2013, the facility expanded gastroenterology services by opening a fourth, fully
staffed procedure room; acquiring image equipment for endoscopy and bronchoscopy
procedures; and initiating capsule endoscopies.a Facility providers are now able to
perform more endoscopy procedures than prior to the expansion, and the ability to
perform capsule endoscopy has resulted in a $5,000 per month savings (based on an
average of 5 capsule endoscopies per month) and improved patient continuity of care
because the results are immediately available in the EHR to ordering providers.




a
    A tiny capsule the size of a large pill that is swallowed and takes pictures of the small intestine.


VA OIG Office of Healthcare Inspections                                                                    2
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met             Twelve months of PRC meeting minutes
       selected requirements:                            reviewed:
        The PRC was chaired by the Chief of Staff        Although PRC membership included staff
          and included membership by applicable             physicians, it did not include the expected
          service chiefs.                                   experienced senior physicians, such as the
        Actions from individual peer reviews were          Chiefs of Primary Care and MH.
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                   3
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM               Areas Reviewed (continued)                                    Findings
 X     Observation bed use met selected                   Eight months of data reviewed:
       requirements:                                       For February–September 2013, 40 percent of
        Local policy included necessary elements.           observation patients were converted to acute
        Data regarding appropriateness of                   admissions, and the facility had not
          observation bed usage was gathered.                reassessed observation criteria or utilization
        If conversions to acute admissions were             during that time.
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Four quarters of CPR Committee meeting
       met selected requirements:                         minutes reviewed:
        An interdisciplinary committee was                There was no evidence that code reviews
          responsible for reviewing episodes of care        included screening for clinical issues prior to
          where resuscitation was attempted.                the code that may have contributed to the
        Resuscitation event reviews included               occurrence of the code.
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The OR Committee (the Surgical Work
       requirements:                                        Group) only met 7 times over the past
        An interdisciplinary committee with                9 months.
          appropriate leadership and clinical
                                                          Seven months of OR Committee meeting
          membership met monthly to review surgical
                                                          minutes reviewed:
          processes and outcomes.
                                                           The Chief of Staff was not a member.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
 X     Critical incidents reporting processes were         The recipient list for the automatic e-mail
       appropriate.                                         notification was not current.
 X     The process to review the quality of entries in    Twelve months of the Health Information
       the EHR met selected requirements:                 Committee meeting minutes reviewed:
        A committee was responsible to review             EHR quality data was analyzed for only
          EHR quality.                                      2 quarters.
        Data were collected and analyzed at least         The review of EHR quality did not include
          quarterly.                                        EHRs from MH and Pharmacy Services.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                       4
                                  CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM             Areas Reviewed (continued)                                     Findings
 X     The process to review blood/transfusions           Four quarters of Blood Usage Review
       usage met selected requirements:                   Committee meeting minutes reviewed:
        A committee with appropriate clinical             A clinical representative from Anesthesia
         membership met at least quarterly to review        Service attended only two of four meetings.
         blood/transfusions usage.                         The review process did not include the results
        Additional data elements were routinely            of inspections by government or private
         reviewed.                                          (peer) entities and the results of peer reviews
                                                            when transfusions did not meet criteria.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that the Chief of Staff reconsider PRC membership to ensure that
sufficient experienced senior physicians are regular members.

2. We recommended that processes be strengthened to ensure that when conversions from
observation bed status to acute admissions are over 30 percent, observation criteria and
utilization are reassessed timely.

3. We recommended that processes be strengthened to ensure that CPR Committee code
reviews include screening for clinical issues prior to the code that may have contributed to the
occurrence of the code.

4. We recommended that the OR Committee (the Surgical Work Group) meet monthly and
include the Chief of Staff as a member.

5. We recommended that processes be strengthened to ensure that the recipient list for the
automated e-mail notification for critical incidents is kept current.

6. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed at least quarterly and that the review of EHR quality includes most
services.

7. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee member from Anesthesia Service consistently attends meetings and that the
blood/transfusions usage review process includes the results of inspections by government or
private (peer) entities and the results of peer reviews when transfusions did not meet criteria.



VA OIG Office of Healthcare Inspections                                                                    5
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected inpatient units (acute MH, CLC, intensive care, medical, and surgical), outpatient
areas/clinics (x-ray and fluoroscopy, primary care, and specialty care), and the emergency
department. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 30 employee training records (10 radiology employees, 10 acute MH
unit employees, 5 Multidisciplinary Safety Inspection Team members, and 5 occasional acute
MH unit employees). The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                 
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,     
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                   6
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for                    
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
       MH unit staff, Multidisciplinary Safety              
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 X     The locked MH unit(s) was/were in                    The nursing station did not have a panic
       compliance with MH EOC Checklist safety               alarm system that ensured emergent
       requirements or an abatement plan was in              response by staff and VA police.
       place.


VA OIG Office of Healthcare Inspections                                                                   7
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM      Areas Reviewed for Acute MH (continued)                              Findings 
       The facility complied with any additional          
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

8.   We recommended that the locked MH unit nursing station have a panic alarm system.




VA OIG Office of Healthcare Inspections                                                                   8
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 25 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  10
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 28 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 4B, CLC unit 3 East, and MH unit
2B—for 50 randomly selected days between October 1, 2012, and September 30, 2013. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

 NM                     Areas Reviewed                                       Findings
        The facility either implemented or reassessed
        a nurse staffing methodology within the
        expected timeframes.
        The facility expert panel followed the required
        processes and included the required
        members.
        The unit-based expert panels followed the
        required processes and included the required
        members.
        Members of the expert panels completed the
        required training.
        The actual nursing hours per patient day met
        or exceeded the target nursing hours per
        patient day.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  11
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 21 EHRs of patients with pressure ulcers (8 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
3 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                 In 12 of the 21 EHRs, staff did not
       documenting location, stage, risk scale score,      consistently document the risk scale score.
       and date acquired.
 X     Required activities were performed for             Four of the 20 applicable EHRs did not
       patients determined to be at risk for pressure      contain consistent documentation that staff
       ulcers and for patients with pressure ulcers.       performed daily risk scales and/or revised
                                                           prevention plans when risk level changed.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
 X     For patients at risk for and with pressure         Five of the 21 EHRs contained no
       ulcers, interprofessional treatment plans were      documentation that interprofessional
       developed, interventions were recommended,          treatment plans were developed and/or did
       and EHR documentation reflected that                not reflect that interventions were provided.
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    12
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM             Areas Reviewed (continued)                                     Findings
 X     The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         For 14 of the 18 applicable patients at risk for
       development was provided to those at risk for       or with a pressure ulcer, EHRs did not contain
       and with pressure ulcers and/or their               evidence that education was provided.
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
 X     The facility complied with any additional         Local policy on assessment and prevention of
       elements required by VHA or local policy.         pressure ulcers reviewed:
                                                          In 5 of the 21 EHRs, applicable consults were
                                                            not completed.

Recommendations

9. We recommended that processes be strengthened to ensure that acute care staff
accurately document risk scale scores for all patients with pressure ulcers and that compliance
be monitored.

10. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily risk scales and revise prevention plans when risk levels change for patients
at risk for or with pressure ulcers and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that acute care staff develop
interprofessional treatment plans for all hospitalized patients identified as being at risk for
pressure ulcers and patients with pressure ulcers and that staff provide and document
recommended interventions and that compliance be monitored.

12. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that applicable consults are
completed for patients at risk for and with pressure ulcers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  13
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 12 EHRs of residents (10 residents receiving restorative nursing services and
2 residents not receiving restorative nursing services but candidates for services). We also
observed 10 residents during 2 meal periods, reviewed 5 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented            In 9 of the 10 applicable EHRs, there was no
       restorative nursing services, including active      documentation that facility staff completed
       and passive range of motion, bed mobility,          restorative nursing services according to
       transfer, and walking activities, according to      clinician orders and/or residents’ care plans.
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing      None of the 9 applicable EHRs contained
       goals was documented, and interventions             evidence that facility staff documented
       were modified as needed to promote the              resident progress towards restorative nursing
       resident’s accomplishment of goals.                 goals.
 X     When restorative nursing services were care        In the two EHRs where restorative nursing
       planned but were not provided or were               services were care planned but were not
       discontinued, reasons were documented in            provided or were discontinued, there were no
       the EHR.                                            reasons documented.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 X     Care planned/ordered assistive eating devices      Six of the 36 assistive eating devices care
       were provided to residents at meal times.           planned/ordered (17 percent) were not
                                                           provided to residents.




VA OIG Office of Healthcare Inspections                                                                  14
                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM         Areas Reviewed for Assistive Eating                                 Findings
         Devices and Dining Service (continued)
       Required activities were performed during
       resident meal periods.
 X     The facility complied with any additional         Facility policy on rehabilitative/restorative and
       elements required by VHA or local policy.         supportive nursing care for extended care
                                                         residents reviewed:
                                                          None of the 9 applicable EHRs contained
                                                            ongoing documentation regarding resident
                                                            progress using the required Restorative
                                                            Weekly Note.

Recommendations

14. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that staff document resident
progress towards restorative nursing goals and that compliance be monitored.

16. We recommended that processes be strengthened to ensure that staff document the
reasons for discontinuing or not providing restorative nursing services when those services are
care planned and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that all care planned/ordered
assistive eating devices are provided to residents for use during meals.

18. We recommended that processes be strengthened to ensure that staff document resident
progress using the required Restorative Weekly Note.




VA OIG Office of Healthcare Inspections                                                                      15
                             CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                             Appendix A


               Facility Profile (Columbia/589) FY 2014 through
                                 December 2013b
Type of Organization                                                             Tertiary
Complexity Level                                                                 1C-High complexity
Affiliated/Non-Affiliated                                                        Affiliated
Total Medical Care Budget in Millions                                            $269.7
Number of:
    Unique Patients                                                             22,056
    Outpatient Visits                                                           78,922
    Unique Employeesc                                                           1,039
Type and Number of Operating Beds (October 2013):
    Hospital                                                                    74
    CLC                                                                         41
    MH                                                                          12
Average Daily Census (November 2013):
    Hospital                                                                    43
    CLC                                                                         32
    MH                                                                          5
Number of Community Based Outpatient Clinics                                     7
Location(s)/Station Number(s)                                                    Jefferson City/589G8
                                                                                 Kirksville/589GE
                                                                                 Ft. Leonard Wood/589GF
                                                                                 Lake of the Ozarks/589GH
                                                                                 Mexico/589GX
                                                                                 St. James/589GY
                                                                                 Sedalia/589JA
VISN Number                                                                      15




b
    All data is for FY 2014 through December 2013 except where noted. 

c
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                           CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                                                           Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)d




d
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                            17
                                                 CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                  18
                                                                                       CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          19
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       December 30, 2013

          From:        Director, VA Heartland Network (10N15)

       Subject: 	      CAP Review of the Harry S. Truman Memorial Veterans’
                       Hospital, Columbia, MO

             To:       Director, Kansas City Office of Healthcare Inspections
                       (54KC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Attached please find Truman VA’s response to the draft report of the
       Combined Assessment Program Review conducted the week of
       November 11, 2013.

       2. I have reviewed and concur with the Acting Medical Center Director’s
       response and proposed action plans.

       3. If you have any questions, please feel free to contact Julie Madere,
       Acting VISN 15 Quality Management Officer at 816-701-3000.




       WILLIAM P. PATTERSON, MD, MSS




VA OIG Office of Healthcare Inspections                                                         20
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                        Appendix D
                      Acting Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       December 26, 2013

          From:        Acting Director, Harry S. Truman Memorial Veterans’
                       Hospital (589A4/00)

       Subject:        CAP Review of the Harry S. Truman Memorial Veterans’
                       Hospital, Columbia, MO

             To:       Director, VA Heartland Network (10N15)

       1. I have reviewed and concur with the findings and recommendations in
       the draft report of the Office of Inspector General Combined Assessment
       Program Review conducted the week of November 11, 2013.

       2. Corrective action plans have been developed or implemented for all
       recommendations as outlined in the attached report.




       ROBERT G. RITTER, FACHE




VA OIG Office of Healthcare Inspections                                                         21
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


                               Comments to OIG’s Report

The following Acting Director’s comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Chief of Staff reconsider PRC
membership to ensure that sufficient experienced senior physicians are regular
members.

Concur

Target date for completion: January 14, 2014

Facility response: The Peer Review Board policy was revised on December 10, 2013
to reflect a change in membership from at least three direct patient care physicians to at
least three senior members of the medical staff. The first meeting with the new
membership will be January 14, 2014.

Recommendation 2. We recommended that processes be strengthened to ensure that
when conversions from observation bed status to acute admissions are over 30 percent,
observation criteria and utilization are reassessed timely.

Concur

Target date for completion: December 12, 2013

Facility response: Observation criteria and utilization are being discussed at the
quarterly Physician Utilization Management Advisor meeting with clinical reviewers.
These discussions are now being documented in minutes. Discussions were also
occurring at Clinical Executive Board (CEB) when conversions from observation bed
status to acute admissions were over 30 percent; however, these discussions were not
documented in the minutes. All future discussions will be documented in detail in the
CEB minutes. The Chief of Quality Management will review the minutes for 6 months to
ensure appropriate documentation of the discussions is occurring.

Recommendation 3. We recommended that processes be strengthened to ensure that
CPR Committee code reviews include screening for clinical issues prior to the code that
may have contributed to the occurrence of the code.

Concur

Target date for completion: February 28, 2014

Facility response: A database is being developed that will be used to enter the data
from the code reviews as they are completed, to include screening for clinical issues


VA OIG Office of Healthcare Inspections                                                         22
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


prior to the code. Reports will be generated from the database and the results
discussed and documented in CPR Committee minutes. Until the database is
completed and tested, a code blue review checklist will be used to document review of
the codes. Findings from the reviews will be discussed at the CPR Committee and
documented in the minutes. The Chief of Quality Management will review the minutes
for 6 months to ensure appropriate review and documentation is occurring.

Recommendation 4. We recommended that the OR Committee (the Surgical Work
Group) meet monthly and include the Chief of Staff as a member.

Concur

Target date for completion: January 31, 2014

Facility response: The Surgical Work Group (previously OR Committee) policy is
currently being revised to include the Chief of Staff as a member of the committee. The
Chief of Staff did attend the December 10, 2013, meeting. The revised policy will also
include the requirement that the committee meet monthly.

Recommendation 5. We recommended that processes be strengthened to ensure that
the recipient list for the automated e-mail notification for critical incidents is kept current.

Concur

Target date for completion: November 20, 2013

Facility response: The Critical Incident Tracking Notification (CITN) system was
updated on November 20, 2013, to reflect the current Acting Chief Medical Officer. All
other recipients are current. Our process has been changed to include verification that
the recipient list is current prior to submission of any critical incidents.

Recommendation 6. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed at least quarterly and that the review of
EHR quality includes most services.

Concur

Target date for completion: January 31, 2014

Facility response: Health Information Committee has developed a reporting matrix for
review of the quality of entries in the EHR. This matrix includes all services with staff
who document in the EHR. Reviews are scheduled for each quarter to ensure data is
collected and analyzed at least quarterly. The Chief of Quality Management will review
minutes of the Health Information Committee for 4 quarters to ensure compliance.




VA OIG Office of Healthcare Inspections                                                         23
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Recommendation 7. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee member from Anesthesia Service consistently
attends meetings and that the blood/transfusions usage review process includes the
results of inspections by government or private (peer) entities and the results of peer
reviews when transfusions did not meet criteria.

Concur

Target date for completion: January 31, 2014

Facility response: The Chief of Staff addressed attendance at the Blood Usage
Review Committee prior to this site visit, and attendance at the last 2 quarterly meetings
met the criteria. The Chair of the Blood Usage Review Committee reviewed VHA
Directive 2009-005 for required elements and has added the results of inspections and
results of peer reviews as standing agenda items for future committee meetings. These
discussions will be documented in the minutes. The Chief of Quality Management will
review the minutes of the Blood Usage Review Committee for 6 months to ensure
compliance with attendance and required reviews.

Recommendation 8. We recommended that the locked MH unit nursing station have a
panic alarm system.

Concur

Target date for completion: January 31, 2014

Facility response: The nurse locator system is used as our panic alarm system. When
activated it notifies the nursing staff at the unit nursing station as well as the telephone
operator. All staff assist alarms from 2B (mental health unit) are considered a Code
Orange (behavior emergency) and operators call a Code Orange to 2B. A process has
been implemented for testing of the locator badges and documentation of the testing.
The 2B Nurse Manager will provide training to all staff on the testing procedure.

Recommendation 9. We recommended that processes be strengthened to ensure that
acute care staff accurately document risk scale scores for all patients with pressure
ulcers and that compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: Education will be provided to nursing staff as part of the annual
competency and during nursing orientation. The Skin/Wound Registered Nurse (RN)
will provide education to off tour nursing staff on the Braden scale. Skin Resource
Nurses will provide quarterly inservices on the Braden Scale to their respective units.
Nurse managers, in collaboration with the Skin/Wound RN, will perform monthly random
chart audits for appropriate and consistent Braden scoring using a standardized audit
tool. Nurse managers will identify trends and address concerns with staff individually as


VA OIG Office of Healthcare Inspections                                                         24
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


needed. Random chart reviews will begin in February 2014 and continue until
90 percent compliance is achieved for 3 months.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily risk scales and revise prevention plans
when risk levels change for patients at risk for or with pressure ulcers and that
compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: Office of Information Technology (OIT) has inactivated the
CO-Nursing Note Template, which does not have the VA Nursing Outcomes Database
skin template included, to ensure correct documentation in the correct template. In
addition to the annual competency, all inpatient and CLC RNs will be required to view
the educational DVD, “The Big 4 in Under 4.” This DVD presents how to complete a
skin assessment in 4 minutes. Education will be documented in Talent Management
System. Nurse managers, in collaboration with the Skin/Wound RN, will perform
monthly random chart audits for daily skin assessment and correct note template using
a standardized audit tool. Random chart reviews will begin in February 2014 and
continue until 90 percent compliance is achieved for 3 months.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff develop interprofessional treatment plans for all hospitalized
patients identified as being at risk for pressure ulcers and patients with pressure ulcers
and that staff provide and document recommended interventions and that compliance
be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: OIT will build an option for automatic Wound Care Nurse consult
into documentation to be included in all reassessment, admission and transfer nursing
notes. This will include a prompt that a consult is needed on any pressure ulcer and
Braden score less than 12 as per hospital policy.

OIT will also build an option for automatic consults for the dietician into documentation
templates (as above). This will include a prompt to do a consult to the dietitian for any
patient with a Braden score less than 16 as stated in hospital policy.

The Skin/Wound RN and/or unit Skin Resource Nurses will consult additional disciplines
as needed when the skin/wound consult is completed. Automatic consult option will be
added to the CO-Skin Integrity Evaluation and Consult notes (Occupational Therapy,
Physical Therapy, Social Work, Prosthetics).




VA OIG Office of Healthcare Inspections                                                         25
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


OIT will remove the option to select “no interventions needed” so addition of appropriate
interventions will be a mandatory documentation field.

Nurse managers, in collaboration with the Skin/Wound RN, will perform monthly random
chart audits using a standardized audit tool. Reviews will begin in February 2014 and
continue until 90 percent compliance is achieved for 3 months. Trends identified by the
audit tool will be discussed at monthly Skin Resource Nurse meetings and action plans
created as needed.

Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: The Skin/Wound RN and the Skin Resource Nurses will develop an
educational template to be added by OIT with mandatory fields in all nursing
documentation including admission assessment, transfer note, reassessment notes and
discharge note. An educational pamphlet has been made available on every unit in a
prominent location.

Nurse managers, in collaboration with the Skin/Wound RN, will perform monthly random
chart audits for documentation of education using a standardized audit tool. Reviews
will begin in February 2014 and continue until 90 percent compliance is achieved for
3 months.

Recommendation 13. We recommended that processes be strengthened to ensure
that applicable consults are completed for patients at risk for and with pressure ulcers
and that compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: OIT will build an option for automatic Wound Care Nurse consult
into documentation to be included in all reassessment, admission and transfer nursing
notes. This will include a prompt that a consult is needed on any pressure ulcer and
Braden score less than 12 as per hospital policy.

OIT will also build an option for automatic consults for the dietician into documentation
templates (as above). This will include a prompt to do a consult to the dietitian for any
patient with a Braden score less than 16 as stated in hospital policy.

Skin/Wound RN, in collaboration with the nurse managers, will monitor trends monthly.
Chart reviews will begin in February 2014 and continue until 90 percent compliance is



VA OIG Office of Healthcare Inspections                                                         26
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


achieved for 3 months. Nurse managers will follow up on individual documentation
issues and failure to follow policy.

Recommendation 14. We recommended that processes be strengthened to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or residents’ care plans and that compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: CLC staff was in-serviced on documentation of restorative nursing
services according to clinician orders and/or residents’ care plans. Documentation will
be completed by facility staff. The CLC Nurse Manager or designee will conduct a
monthly random audit to ensure restorative nursing services are documented according
to clinical orders and/or residents’ care plans. Reviews will begin in February 2014 and
continue until 90 percent compliance is achieved for 3 months.

Recommendation 15. We recommended that processes be strengthened to ensure
that staff document resident progress towards restorative nursing goals and that
compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: CLC staff was in-serviced on documentation of progress towards
restorative nursing goals. Staff nurses will document weekly resident progress towards
restorative nursing goals. The CLC Nurse Manager or designee will conduct a monthly
random audit to ensure that staff document resident progress towards restorative goals.
Reviews will begin in February 2014 and continue until 90 percent compliance is
achieved for 3 months.

Recommendation 16. We recommended that processes be strengthened to ensure
that staff document the reasons for discontinuing or not providing restorative nursing
services when those services are care planned and that compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: CLC staff was in-serviced on documenting in the EHR the reasons
for discontinuing or not providing restorative nursing services when these services are
care planned. When restorative nursing services are care planned but not provided or
discontinued reasons will be documented in the EHR. The CLC Nurse Manager or
designee will conduct a monthly audit of records to ensure appropriate documentation is
occurring. Reviews will begin in February 2014 and continue until 90 percent
compliance is achieved for 3 months.


VA OIG Office of Healthcare Inspections                                                         27
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Recommendation 17. We recommended that processes be strengthened to ensure
that all care planned/ordered assistive eating devices are provided to residents for use
during meals.

Concur

Target date for completion: December 31, 2013

Facility response: The list of ordered/care planned assistive eating devices was
updated on November 21, 2013. In addition to entering the order into Vista when a new
type of adaptive equipment is ordered for a resident, the CLC dietitian is sending an
additional note to the kitchen as a reminder. The Nutrition and Food Service staff was
reminded at the November staff meeting to double check the patient tray tickets to
ensure that the ordered assistive eating devices are on the resident trays. The dietitian
and supervisors of Nutrition and Food Service will monitor one breakfast, lunch and
dinner weekly for assistive eating devices being provided. The audits will continue until
90 percent compliance is achieved for 3 months.

Recommendation 18. We recommended that processes be strengthened to ensure
that staff document resident progress using the required Restorative Weekly Note.

Concur

Target date for completion: November 29, 2013

Facility response: CLC staff has been in-serviced on documentation regarding
resident progress in the medical record by use of the Restorative Weekly Note. Weekly
progress towards restorative nursing goals will be documented. The CLC Nurse
Manager or designee will conduct monthly audits for documentation of progress using
the required Restorative Weekly Note until 90 percent compliance is achieved for
3 months.




VA OIG Office of Healthcare Inspections                                                         28
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Cindy Niemack-Brown, CMSW, LMHP, Team Leader
Contributors            Stephanie Hensel, RN, JD
                        James Seitz, RN, MBA
                        Larry Selzler, MSPT
                        Laura Snow, LCSW, MHCL
                        Greg Billingsley, Resident Agent in Charge
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS
                        Jennifer Whitehead




VA OIG Office of Healthcare Inspections                                                         29
                        CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Heartland Network (10N15)
Acting Director, Harry S. Truman Memorial Veterans’ Hospital (589A4/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Roy Blunt, Claire McCaskill
U.S. House of Representatives: Vicky Hartzler, Blaine Luetkemeyer


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         30
                              CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.




VA OIG Office of Healthcare Inspections                                                                            31
                              CAP Review of the Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



5
    The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    32
